                   UNITED STATES DEPARTMENT OF EDUCATION
                                    OFFICE OF THE INSPECTOR GENERAL




February 27, 2004


INSPECTION REPORT

To:               William Leidinger
                  Assistant Secretary
                  Office of Management

From:             Cathy H. Lewis
                  Assistant Inspector General
                  Evaluation, Inspection, and Management Services

Subject:          Guard Quality Assurance Issues at the Mary E. Switzer Building
                  (ED/OIG I13D0014)

Executive Summary

This memorandum provides the results for our inspection of contract guard
quality assurance at the Mary E. Switzer (Switzer) building. Our inspection
objectives were to determine (1) the effectiveness of the guard quality assurance
program at the Switzer building, and (2) the Department of Education’s
(Department) role in the quality assurance process.

Employee concerns about guard performance in the Switzer building surfaced in
a Department-wide safety and security survey conducted in October 2002.
Issues raised by the survey specific to the Switzer building included lack of
uniformity in searching baggage and checking ID badges, lack of attention to
detail, poor professionalism and training.

The Department relies on the Federal Protective Service (FPS) to provide
contract guard service for Switzer and its other buildings. The primary
responsibility for monitoring the contractor’s work rests with the FPS. The FPS,
however, devotes limited resources to this task and relies heavily upon the
Department’s Agency Technical Representative (ATR) for assistance in
monitoring the adequacy of performance by the contract employees and advising
the FPS of unsatisfactory performance.

As a result of our inspection, we determined that the quality assurance program
is not being effectively monitored by the FPS. The Department is not playing the
active role in monitoring performance envisioned by the guard contract and the
FPS, in large part because the ATR is unclear about the role that she is intended
                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
OIG/Evaluations and Inspections   Inspection Report                 ED/OIG I13D0014


to play and with whom, in the FPS and in the Department, she should be sharing
information. Within the Office of Management (OM) there appears to be
uncertainty about which component has responsibility for the ATR function. The
ATR’s responsibilities need to be clarified, and OM needs to clarify for itself and
the FPS what entity within OM has responsibility for overseeing contract guard
performance, who will supervise and train the ATRs and how this position will be
staffed. In addition, because of the limited role the Department is playing, it does
not have access to performance information that might justify appropriate
contract deductions.

Department offices will move out of the Switzer building next May. However, it is
our understanding that similar guard contracts cover other Department facilities
and will cover the new location on 12th street. Therefore, our recommendations
cover not only improvements needed with respect to the current situation in the
Switzer building, but also planning for the new facility and a recommendation that
the Department assess the situation at other current locations to determine if the
problems identified at the Switzer building also exist at those other facilities.

On January 30th, the Assistant Secretary for Management responded to the draft
version of this report. Our comments to the Assistant Secretary’s memorandum
can be found starting on page 11 of this report.

Recommendations:

To address these issues, we recommend that the Assistant Secretary for
Management:

   1. Supplement the current guard contract with a memorandum of
      understanding (MOU) with the FPS. This document should:
         • Clarify the role of the ATR and the role of the FPS staff with respect
            to the monitoring of the quality assurance standards for guard
            services;
         • Specify the staff resources that the FPS will commit to the
            monitoring process; and
         • Identify how information supporting performance deductions will be
            provided to the Department.




                                         2
OIG/Evaluations and Inspections   Inspection Report                 ED/OIG I13D0014




   2. Assess the situation at all other Department locations to ensure that an
      active ATR is assigned to cover each location, that this individual fully
      understands his or her role in the quality assurance process, and assure
      that effective communication is occurring on a regular basis between the
      FPS and the Department with respect to guard performance, or lack
      thereof, at each location.

   3. Review the guard contract for the 12th street location and incorporate into
      the contract, or include by attached MOU, language consistent with
      recommendation #1.

   4. Develop and maintain a staff of trained ATRs sufficient to ensure that
      these staff can perform the duties defined in the contract and MOU and at
      each Department facility.

   5. Clarify where responsibility resides within OM for providing ATRs,
      specifically,

       •   Who has responsibility for supervising the performance of these
           individuals, including the effectiveness of their communication with the
           FPS and

       •   To whom information about possible contract deductions for non-
           performance will be conveyed within the Department and how this
           information will be evaluated and processed.

Background

The Department spends over $600,000 annually to secure guard services for the
Switzer building and over $6 million annually to secure these services for all
Department facilities. The FPS provides contract guards to ensure the physical
safety and security of Government employees and building visitors. Most guards
are authorized to carry firearms. Guards are deployed at roving and fixed posts,
where they often man security-screening devices such as magnetometers and x-
ray machines. In accordance with the 1995 Department of Justice standards, the
Switzer building is a Level IV facility, the second highest (most secure) in the
Federal Government.

As a result of the security enhancement efforts following the April 19, 1995
bombing of the Murray Federal Building in Oklahoma, the contract guard force
more than doubled to approximately 7,000 security guards. With FY 2002
obligations of $144 million, contract guard services represent the largest
expenditure in the FPS budget.




                                         3
OIG/Evaluations and Inspections         Inspection Report                      ED/OIG I13D0014




Until March 2003, the General Services Administration (GSA) maintained the
security guard contracts for all federal agencies located in GSA owned or leased
buildings. Through the contract process, GSA provided security in federal
buildings for agencies not authorized delegated authority. Effective
March 1, 2003, the Department of Homeland Security (DHS) assumed
responsibility for the security of federal buildings. The FPS was transferred from
GSA to DHS. Routinely, guard services are contracted to one of the many local
security firms specializing in public building security. On May 30, 2003 the FPS
discontinued using the contractor, Area Wide Security, at the Switzer building.
The current contractor is Knight Protective, Inc. The new contractor began
providing guard services for the Switzer building on June 1, 2003. According to
the Contracting Officer (CO), the contract change was prompted in part by a
need to consolidate guard contracts and in part because of poor performance.
The CO stated that Area Wide Security had significant performance issues that
added to their decision to re-compete the contract.1

The Switzer building guard contract pays for three broad service areas: the
guards (staffing), the FPS administration of the contract, and quality assurance.
The CO for the contract is an FPS employee; the current Contracting Officer
Representative (COR) for the contract is the GSA Building Manager;2 and the
ATR is a Department employee.

Inspection Results

Objective 1: Determine the effectiveness of the guard quality assurance
program at the Switzer building.

The Switzer building does not have an effective guard quality assurance
program. While the FPS has primary responsibility for monitoring guard services,
it does not have sufficient quality assurance staff to ensure an effective program.




1
   All FPS guard contracts are written with a right of first refusal clause. When the FPS changes
contractors (to improve service, save money, for convenience to the government etc.), the guards
employed by the former contractor have the right to remain in their current position and must be
employed by the new contractor. Executive Order 12933, dated July 21, 1997 (Non-displacement
of Qualified Workers) ensures that a new contractor must offer employment to security guards
from the former contract for at least one year from the time the new contract becomes effective.
This Executive Order was rescinded in 2003; however, 29 CFR Sec.4.173 still requires the new
contractor to offer its predecessor’s employees the right of first refusal. This requirement makes
it difficult to remove poor performing contract guards at the outset of a new contract.
2
  The contract references a Contracting Officer Technical Representative (COTR) as well as a
COR. Typically, these positions are interchangeable and are now referred to as just the COR. In
any event, according to the FPS, there is no COTR assigned to this contract.


                                                4
OIG/Evaluations and Inspections         Inspection Report                       ED/OIG I13D0014




According to the guard contract, the FPS quality assurance specialists, who are
supervised by the COR, “are responsible for the day-to-day inspection and
monitoring of the contractor’s work.” Specifically, these specialists are
responsible for:

            •   Inspecting work to ensure compliance with the contract statement
                of work requirements;
            •   Documenting through written inspection reports the results of all
                inspections conducted;
            •   Ensuring defects or omissions are corrected;
            •   Identifying to the CO and COR areas of non-performance by the
                contractor that may result in deductions from contract payment or
                other contractual remedies being taken, and
            •   Conferring with representatives of the contractor regarding
                problems encountered in the performance of the work, and
                generally assisting the COR in carrying out the duties.3

However, according to the FPS CO, the FPS has only nine specialists to perform
these tasks, and these nine are responsible for monitoring 5000 guards and over
100 buildings in the National Capitol Area. In our interviews with the CO, she
stated that the FPS is chronically understaffed to handle the magnitude of
inspections to the depth needed in order to be effective, and while the FPS is
attempting to acquire more quality assurance specialists, the success of this
effort is uncertain at this time. The Chief Quality Assurance Inspector at the FPS
also acknowledged that the biggest obstacle to achieving better guard service is
the lack of quality assurance inspectors in the FPS.

Under GSA guidance that continues to be followed by the FPS, other FPS
employees also can be designated to perform inspections of the contract guards,
including physical security specialists, law enforcement and security officers,
FPS law enforcement officers and protection specialists. However, under the
contract, the quality assurance specialist is responsible for the day-to-day
inspection and monitoring of the contractor’s work.4




3
  In addition to the contract requirements for quality assurance, PBS P 5930.17C, Chapter 9,
paragraph 5(a) states, “To ensure that the Government receives the caliber of services for which
it has contracted, the FPS personnel will be required to frequently conduct inspections of contract
guards as part of their assigned duties.”
4
  Ibid.


                                                 5
OIG/Evaluations and Inspections        Inspection Report                      ED/OIG I13D0014




From the FPS’ vantage point, it cannot monitor the contract guard program
effectively without active assistance from the ATR. Under the contract, the ATR
is responsible for:

    1. Determining the adequacy of performance by the contract employees in
       accordance with the terms and conditions of this contract;
    2. Performing surveillance of the contract employees while they are on duty;
    3. Conducting “intrusion tests” in which undercover FPS staff will attempt to
       bring unauthorized weapons or other prohibited materials into the facility,
       using the prescribed security methods or equipment, without being
       detected by the guards on post;
    4. Acting as the Government’s representative in charge of work at the site;
    5. Ensuring compliance with contract requirements insofar as the guards’
       duties and behavior are concerned; and
    6. Advising the contractor, CO and COR of nonperformance or
       unsatisfactory performance.5

The Switzer building’s ATR’s understanding of her responsibilities, however,
differs from that outlined in the contract. According to the ATR, her role is to
provide operational involvement on behalf of the Department and to create
special guard post orders, escort visitors and secure an additional guard for a
post when required due to ceremonies, special construction work, etc. Unless
she observes a “major, major security violation,” she does not report it. When
she does report a security violation, it is to the Switzer GSA building manager,
the current COR on the guard contract, although the contract states that the ATR
will also provide such information to the CO, and thus to the FPS. According to
the ATR she was never instructed to communicate with the FPS. According to
the FPS Chief Quality Assurance Inspector, with the exception of one instance,
he said Department officials have never briefed him on their contract guard
concerns. Furthermore, according to him, because he does not have a rapport
with the Department, when violations occur, he does not relay the issues to
Department officials. According to the COR, the ATR does not talk with him
about contract guard concerns.

The FPS does not have adequate resources to effectively monitor guard
performance at the Switzer building. The guard contract is structured to place
heavy reliance on the Department’s ATR playing an active role in monitoring
performance; however, this is not occurring. Adequate resources to support the
monitoring process need to be provided by the FPS and the responsibilities of
the Department’s ATR, including to whom she is expected to report performance
problems, need to be clearly articulated by the Department.



5
 FPS contract with Knight Protective Solicitation No. WPSB-03-0010, Part I -- Statement of Work,
P.4, paragraph (1).


                                               6
OIG/Evaluations and Inspections       Inspection Report                      ED/OIG I13D0014


In light of these findings, we conclude that there does not appear to be an
effective guard quality assurance program currently operating in the Switzer
building.

Objective 2: Determine the Department’s role in the quality assurance
process.

The Department has a significant role to play in the quality assurance process;
however, it is not effectively fulfilling its responsibilities. Its ability to perform has
been limited by misperceptions by the ATR of her responsibilities, confusion
about lines of responsibility within OM and lack of communication between the
FPS and the Department.

The Department’s responsibilities with respect to the quality assurance process
are described in the FPS contract and the Department’s Physical Security
Program Directive OM: 4-112, as discussed above. Under the contract, the ATR
is to work actively with the COR and CO. No information regarding guard
performance is apparently being provided to the CO or the COR by the ATR.

As described above, the ATR perceives her role with respect to providing input
on guard performance as far more limited than what is envisioned by the FPS or
the contract. In addition to her misperceptions, there appears to be additional
confusion about lines of responsibility within OM. The Department’s security
directive provides that the ATR will work with the Department’s Security Office in
implementing physical security programs at Department Headquarters.
According to the Executive Office for OM, Security Services should accomplish
most of the monitoring of Department guard contracts and that Security Services
staff was the ATR for the guard contract. Security Services stated that when
they were established in 2002, they were not designed to be the ATRs for all
Department buildings and that they are not properly staffed to fulfill those duties.
Security Services personnel told us that when they were separated from the
Quality Work Group (QWG), the full-time equivalents (FTE) to perform the ATR
duties remained in QWG. The current ATR is in fact a QWG employee and
according to her, no one has directed her to report performance problems to the
Security staff.6 The Switzer building ATR said her duties will expire in a few
months and her position will not be renewed.

Under the terms of the contract and the Department’s own security directive, the
ATR has an important role to play in the monitoring process. We raised this
issue in interviews with the Acting Director of Security Services, the head of
QWG, and the OM Executive Officer. The Acting Director recognized the
importance of the ATR; however, from the interviews with him, Security Services

6
  We were unable to locate any internal Department guidance for ATRs and, with the exception of
the Switzer building, we found no other ATRs for Department buildings in the National Capital
Region. The two former ATRs we spoke with said their duties expired several years ago.



                                              7
OIG/Evaluations and Inspections         Inspection Report                      ED/OIG I13D0014


staff, the Executive Officer and the head of QWG it is unclear where this position
will be located within the OM organizational structure and how OM plans to meet
the need for ATRs7.

The lack of information flowing between the Department and the FPS about
identified performance problems raises a potential fiscal as well as security
problem. The FPS has the authority to deduct funds from the contractor as a
penalty for improper procedures or service, including poor performance. The
Quality Assurance specialists have the authority to carry out deduction notices.
We asked the FPS how many Switzer building deduction notices were processed
over the last 36 months (from June 2003). The FPS was only able to identify one
deduction notice over the past three years. This notice was not related to guard
performance.

If a deduction is appropriate, a Reimbursable Work Authorization is created to
transfer funds. These authorizations are also the vehicle for paying additional
costs, e.g., additional guard coverage for special events. The Security Office is
responsible for oversight of the security guard Reimbursable Work Authorization
payments; however, inasmuch as there is no regular communication between the
ATR and Security Services with respect to guard performance or between the
FPS and the Department, Security Services does not have sufficient information
to know if and when a deduction for non-performance would be appropriate.
According to the FPS CO, if a letter of deduction is created, because she has no
link with the Department, the letter is not shared with the Department. She said
the only way the Department would know it was due return funds from the FPS
due to deductions would be at the end of the contract year when a Reimbursable
Work Authorization is sent to the Department returning the funds.8

The Department is not effectively carrying out its responsibilities to monitor
contract guard performance in the Switzer building. The ATR’s responsibilities
need to be clarified and OM needs to clarify for itself and the FPS what entity
within OM has responsibility for overseeing contract guard performance, who will
supervise and train the ATRs and how this position will be staffed. The
Department also needs to ensure that non-performance information is flowing to
the Security Service (or whatever entity is given the oversight responsibility) and
that the services of budget staff are provided when needed to appropriately
evaluate and process Reimbursable Work Authorizations.



7
  The head of QWG stated that he believed GSA had discontinued the position of ATR.
According to the FPS, this is not correct. The position is clearly identified in the current guard
contract for the Switzer building.
8
  According to the FPS, in most agencies a budget specialist works with the ATR in evaluating
Reimbursable Work Authorizations. In the Department, such authorizations are reviewed by the
OM Executive Officer, but only to ensure that funds are available for expenditure. Staff in the
Department’s Security Service agreed with the FPS’ assessment that it would be useful to have a
budget specialist available.


                                                8
OIG/Evaluations and Inspections   Inspection Report                ED/OIG I13D0014




Conclusion

Since the Switzer building does not operate under any special
provisions/operating procedures in terms of guard services, we can conclude that
the concerns mentioned in this report are applicable to most Department facilities
where contract guard services are used. The FPS employs insufficient quality
assurance staff to ensure an effective guard quality service program for the
Department. The FPS is aware of these resource limitations and has structured
the guard contract to rely heavily on the Department’s ATR to provide ongoing
feedback to the FPS on guard performance issues. This expectation is not
clearly reflected in the Department’s own Security Directive, and the ATR for the
Switzer building maintains that she is unaware of having such a responsibility.
As a result, the Department is neither giving nor receiving information about
guard performance in the Switzer building or other facilities on a recurring basis.

There appears to be no reliable mechanism by which these issues will be raised
or resolved by the FPS. Because of the Department’s lack of information, not
only is there the opportunity for security to be compromised for Department
employees who work in the Department facilities, but also the Department may
not be claiming deductions appropriate under the contract for lack of guard
performance. The confusion that exists between the FPS, OM Security Services
and the ATR regarding their respective responsibilities for guard performance
needs to be resolved and the respective roles of each entity clearly and
consistently articulated and implemented for all Department facilities.

Recommendations:

To address these issues, we recommend that the Assistant Secretary for
Management:

   1. Supplement the current guard contract with a memorandum of
      understanding (MOU) with the FPS. This document should:
         • Clarify the role of the ATR and the role of the FPS staff with respect
            to the monitoring of the quality assurance standards for guard
            services;
         • Specify the staff resources that the FPS will commit to the
            monitoring process; and
         • Identify how information supporting performance deductions will be
            provided to the Department.




                                         9
OIG/Evaluations and Inspections    Inspection Report                ED/OIG I13D0014


    2 Assess the situation at all other Department locations to ensure that an
      active ATR is assigned to cover each location, that this individual fully
      understands his or her role in the quality assurance process, and assure
      that effective communication is occurring on a regular basis between the
      FPS and the Department with respect to guard performance, or lack
      thereof, at each location.

    3 Review the guard contract for the 12th street location and incorporate into
      the contract, or include by attached MOU, language consistent with
      recommendation #1.

    4 Develop and maintain a staff of trained ATRs sufficient to ensure that
      these staff can perform the duties defined in the contract and MOU and at
      each Department facility.

    5 Clarify where responsibility resides within OM for providing ATRs,
      specifically,

           •   Who has responsibility for supervising the performance of these
               individuals, including the effectiveness of their communication with
               the FPS and
           •   To whom information about possible contract deductions for non-
               performance will be conveyed within the Department and how this
               information will be evaluated and processed.

Objectives, Scope and Methodology

Objectives:

    1. Determine the effectiveness of the guard quality assurance program at the
       Switzer building.
.
    2. Determine the Department’s role in the quality assurance process.

Scope and Methodology:

This inspection determined the effectiveness of the FPS’ guard quality assurance
program for the Department as it operates in the Switzer building, the
vulnerabilities that exist in the security guard service in that building and the
Department’s role in the quality assurance process.

As part of the inspection process, we conducted interviews with essential
personnel, gathered pertinent documents, reviewed applicable policies,
regulations and procedures and visited throughout the Switzer building. We also
referred to the recent Department-wide security survey to better understand how
employees view the security guards at the Switzer building. In addition, we


                                          10
OIG/Evaluations and Inspections    Inspection Report                 ED/OIG I13D0014


contacted the Offices of Inspector General (OIG) at GSA and DHS to ascertain
their involvement in the contract guard issue. Our document search extended
back 24-36 months from this report date.

We limited our inspection to the Switzer building guard contract, but our
inspection process and the concerns mentioned in this report are applicable to
most Department facilities where contract guard services are used. In order for
this report to reach the proper FPS officials, we will provide a copy of this report
and recommendations to the DHS, OIG officials.

This inspection took place from April to June 2003.

This inspection was performed in accordance with the President’s Council on
Integrity and Efficiency (PCIE) Quality Standards for Inspections dated March
1993.

Department Response

We provided OM with a draft report. We summarized OM's comments after each
recommendation and included them in their entirety as an attachment.

Recommendation 1: Supplement the current guard contract with a
memorandum of understanding (MOU) with the FPS. This document should:

           •   Clarify the role of the ATR and the role of the FPS staff with respect
               to the monitoring of the quality assurance standards for guard
               services;
           •   Specify the staff resources that the FPS will commit to the
               monitoring process; and
           •   Identify how information supporting performance deductions will be
               provided to the Department.

OM stated they would contact Mr. Wendell Shingler, FPS Commissioner, no later
than February 28, 2004, to begin the MOU. The Department will formally request
delegation of authority for ATR assignments to cover all ATR responsibilities at
Department facilities.

We found the Department’s comments responsive to our recommendation.

Recommendation 2: Assess the situation at all other Department locations to
ensure that an active ATR is assigned to cover each location, that this individual
fully understands his or her role in the quality assurance process, and assure that
effective communication is occurring on a regular basis between the FPS and the
Department with respect to guard performance, or lack thereof, at each location.




                                          11
OIG/Evaluations and Inspections    Inspection Report                ED/OIG I13D0014


OM stated they will assign Department employees as ATRs, ensure they are
trained and hold quarterly meetings with ATRs.

We found the Department’s comments responsive to our recommendation.

Recommendation 3: Review the guard contract for the 12th street location and
incorporate into the contract, or include by attached MOU, language consistent
with recommendation #1.

OM stated that all Department facilities having FPS controlled guards will have
the MOU language incorporated into their operating procedures.

We found the Department’s comments responsive to our recommendation.

Recommendation 4: Develop and maintain a staff of trained ATRs sufficient to
ensure that these staff can perform the duties defined in the contract and MOU
and at each Department facility.

OM said they would assign and maintain Department employees as ATRs. In
addition, all ATRs will be over sighted by OM, Security Services.

We found the Department’s comments responsive to our recommendation.

Recommendation 5: Clarify where responsibility resides within OM for providing
ATRs, specifically,

           •   Who has responsibility for supervising the performance of these
               individuals, including the effectiveness of their communication with
               the FPS and
           •   To whom information about possible contract deductions for non-
               performance will be conveyed within the Department and how this
               information will be evaluated and processed.

OM responded that qualified Department employees will be assigned as ATRs
and that Security Services will maintain oversight of all ATRs. ATRs duties will
be assigned as collateral duty. In addition, OM will ask for FPS guard contracting
officials to report all contract deductions for nonperformance to Security Services.
This information will be retained for future contract guard considerations.

We found the Department’s comments responsive to our recommendation. A
copy of the Department Response is included with this report.




                                          12
